No. 19A
IN THE SUPREME COURT OF THE UNITED STATES
Kari Janae Phipps,
Applicant,
v.
State of Idaho,
Respondent.

PROOF OF SERVICE

I, Amir H. Ali, hereby certify that I am a member of the Bar of this Court, and
that I have this 6th day of March, 2020, caused the accompanying Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to be served
via first-class mail postage pre-paid and an electronic version of the document to be
transmitted via electronic mail to:

Kenneth K. Jorgensen

Office of Attorney General - State of Idaho

Statehouse Room 210

P.O. Box 83720

Boise, ID 83720-0010
ken.jorgensen@ag.idaho.gov

March 6, 2020 Amir H. aK z

Counsel of Record
